BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 copies of the foregoing Brief of Amicus
Curiae American Intellectual Property Law
Association Suggesting Reversal in 20-915, Unicolors,
Inc. v. H&M Hennes & Mauritz LP, were sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day and e-mail service to the
following parties listed below, this 10th day of August,
2021:
E. Joshua Rosenkranz
Orrick, Herrington & Sutcliffe LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5380
jrosenkranz@orrick.com

Counsel for Petitioner
Peter K. Stris
Stris and Maher LLP
777 S. Figueroa Street
Suite 3850
Los Angeles, CA 90017
(213) 995-6800
pstris@stris.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Nancy J. Mertzel
Counsel of Record
Mertzel Law PLLC
5 Penn Plaza
New York, New York 10001
(646) 965-6900
nancy@mertzel-law.com
Joseph R. re
President
American Intellectual Property Law Association
1400 Crystal Drive, Suite 600
Arlington, VA 22202
(703) 415-0780

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 10, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ f > ~ /Oz dD d-/

Notary~c fJ

~

[seal]

JOHN D. GALLAGHER
·!:1 '· ,· Public, State of Ohio
r )' Commission Expires
~:ebruary 14, 2023

